HHS/OIG - Audit, "Review of Oregon State's Administrative Cost Claimed
for Medicaid School-Based Health Services in State Fiscal Year 2000," (A-10-02-00002)
Department
of Health and Human Services
"Review of Oregon State's Administrative Cost Claimed for Medicaid School-Based
Health Services in State Fiscal Year 2000," (A-10-02-00002)
October 7, 2002
Complete
Text of Report is available in PDF format (693 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the administrative expenditures
claimed by the Oregon State Department of Health Services, Office of Medical
Assistance Programs (Oregon), for school-based health services for the period
July 1, 1999 through June 30, 2000 (state fiscal year (SFY) 2000) were reasonable,
allowable, and adequately supported.  We found that Oregon did not properly
monitor the school-based health services administrative match program (Program).
As a result, in SFY 2000, Oregon:  (1) did not ensure that unallowable
costs were excluded from claims submitted for Program reimbursement; and (2)
allowed invalid time studies to be used to claim federal reimbursement.
However, due to Program reimbursement limits by Oregon, it appears that the
unallowable costs were not claimed for federal financial participation.
Oregon would have been reimbursed between $3.5 million and $5.3 million in unallowable
costs if it had not limited reimbursement for SFY 2000.  We recommended
that Oregon:  (1) ensure Program expenditures are reasonable, allowable,
and adequately supported; and (2) ensure time studies are properly conducted
and that results are a valid representation of the activities performed.